<html>
<title> - THE BORDER WALL: STRENGTHENING OUR NATIONAL SECURITY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





          THE BORDER WALL: STRENGTHENING OUR NATIONAL SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 27, 2017

                               __________

                           Serial No. 115-22

                               __________

Printed for the use of the Committee on Oversight and Government Reform




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-554 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
              Committee on Oversight and Government Reform

                     Jason Chaffetz, Utah, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Trey Gowdy, South Carolina           Jim Cooper, Tennessee
Blake Farenthold, Texas              Gerald E. Connolly, Virginia
Virginia Foxx, North Carolina        Robin L. Kelly, Illinois
Thomas Massie, Kentucky              Brenda L. Lawrence, Michigan
Mark Meadows, North Carolina         Bonnie Watson Coleman, New Jersey
Ron DeSantis, Florida                Stacey E. Plaskett, Virgin Islands
Dennis A. Ross, Florida              Val Butler Demings, Florida
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Peter Welch, Vermont
Steve Russell, Oklahoma              Matt Cartwright, Pennsylvania
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Will Hurd, Texas                     John Sarbanes, Maryland
Gary J. Palmer, Alabama
James Comer, Kentucky
Paul Mitchell, Michigan

               Jonathan Skladany, Majority Staff Director
                    William McKenna General Counsel
     Sharon Eshelman, National Security Subcommittee Staff Director
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                                 ------                                

                   Subcommittee on National Security

                    Ron DeSantis, Florida, Chairman
Steve Russell, Oklahoma, Vice Chair  Stephen F. Lynch, Massachusetts, 
John J. Duncan, Jr., Tennessee           Ranking Member
Justin Amash, Michigan
Virginia Foxx, North Carolina
Jody B. Hice, Georgia
James Comer, Kentucky


















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 27, 2017...................................     1

                               WITNESSES

Steven A. Camarota, Ph.D., Director of Research, Center for 
  Immigration Studies
    Oral Statement...............................................     5
    Written Statement............................................     8
Mr. Brandon Judd, President, National Border Patrol Council
    Oral Statement...............................................    18
    Written Statement............................................    20
Ms. Maria Espinoza, Director, The Remembrance Project
    Oral Statement...............................................    23
    Written Statement............................................    25
Ms. Agnes Gibboney, Mother whose son was killed by an illegal 
  immigrant
    Oral Statement...............................................    30
    Written Statement............................................    33
Mr. Seth M. Stodder, Former Assistant Secretary, Border, 
  Immigration and Trade Policy,
    Oral Statement...............................................    36
    Written Statement............................................    39

                                APPENDIX

2017-04-24 CATO ``The Border Wall Cannot Pay for Itself'', 
  submitted by Mr. DeSaulnier....................................    72

 
          THE BORDER WALL: STRENGTHENING OUR NATIONAL SECURITY

                              ----------                              


                        Thursday, April 27, 2017

                  House of Representatives,
                 Subcommittee on National Security,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Ron DeSantis 
[chairman of the subcommittee] presiding.
    Present: Representatives DeSantis, Duncan, Gosar, Hice, 
Comer, Demings, Welch and DeSaulnier.
    Also Present: Representative Grothman.
    Mr. DeSantis. The Subcommittee on National Security will 
come to order. Without objection, the chair is authorized to 
declare a recess at any time.
    A core attribute of sovereignty is maintaining control over 
national boundaries, yet for years we have witnessed the 
failure of the U.S. Government to secure our southern border. 
This failure has allowed millions of foreign nationals to enter 
the United States illegally and has allowed huge amounts of 
illicit narcotics to be smuggled into the country. This sorry 
state of affairs has had significant consequences for American 
taxpayers, for victims of violent crime, and for the rule of 
law. It is time to secure the border.
    A central issue of the President's 2006 campaign was the 
promise to build, quote, ``an impenetrable, physical, tall, 
powerful, beautiful, southern border wall,'' end quote. The 
administration is taking steps to fulfill that promise, and the 
Subcommittee on National Security is closely monitoring this 
process. The President issued an executive order on January 25 
for the Department of Homeland Security to, quote, ``take all 
appropriate steps to immediately plan, design, and construct 
the physical wall along the southern border,'' end quote.
    On March 17, the DHS issued two requests for proposals for 
prototype designs as a first step in fulfilling the 
requirements set forth in the executive order. DHS is expected 
to use these prototypes to inform actual construction.
    Now, border walls have seen success in recent years. 
President Trump has identified Israeli border security measures 
as a potential model for securing the U.S.-Mexico border. The 
construction of a security fence on the Israel-Sinai border cut 
illegal entries from over 16,500 in 2011 to just 43 in 2013 and 
12 in 2014, a 99 percent decrease. Israel's Prime Minister 
Benjamin Netanyahu remarked that ``President Trump is right; I 
built a wall on Israel's southern border. It stopped all 
illegal immigration, great success, great idea.''
    Now, do those who oppose building a wall dispute that 
success, or is the reason they oppose building a wall precisely 
because they acknowledge its potential effectiveness at curbing 
illegal immigration? I think we have to figure that out.
    Recent media coverage has focused on the cost of building 
the wall, and obviously this is a legitimate issue. DHS has 
only just begun the procurement process, yet opponents of a 
secure border have resorted to employing exaggerated cost 
estimates about a border wall. For example, Senate Democrats 
recently issued a very flawed report claiming that the wall 
would cost $70 billion. Today's Democratic witness wrote in 
January, however, that a border wall would cost as much as $14 
billion, which is obviously much different than the Senate 
Democrat estimate. And I think what they did was take the 
highest historical number they could find and multiply it by 
the total miles of the border, which I don't think anyone is 
suggesting is the way to do it.
    And other opponents of a secure border have parroted sloppy 
back-of-the-napkin math that is meant to confuse the issue, and 
the American people deserve better than misinformation. The 
wall should be built in a fiscally responsible way, and there 
are a variety of creative ways such as by using the seized 
assets of drug dealers to build it at little or no cost to the 
American taxpayer. At the same time, what is rarely discussed 
but which needs serious inquiry is whether securing the border 
will have a positive effect on American taxpayers at the local, 
State, and Federal levels.
    And today, we will hear testimony from immigration expert 
Dr. Steven Camarota on the significant burdens that illegal 
immigration and having an unsecured border can impose on U.S. 
taxpayers. Dr. Camarota estimates that if a border wall 
prevented between 160,000 to 200,000 illegal crossings, which 
is only about 10 percent of the expected crossings in the next 
decade, then the U.S. would realize between $12-$15 billion in 
savings. That would effectively offset the cost of building the 
wall even if you didn't use the seized drug assets.
    Of course, securing the border is more than about dollars 
and cents. It is also about our government's duty to secure its 
borders, defend our sovereignty, and, most importantly, protect 
our citizens. Illegal immigration has had significant human 
cost. Too many Americans have been robbed of loved ones through 
crimes committed by criminal aliens who should not have been 
allowed in this country to begin with.
    One of them is Mrs. Agnes Gibboney who lost her son Ronald 
da Silva 15 years ago today. Ronald was murdered by a 
previously deported illegal immigrant with a long criminal 
record, and she herself is a legal immigrant from Hungary. Now, 
she did it the right way and her son was taken from her by 
someone who had no right to be in our country. What makes this 
tragedy and others like it so painful is that Ronald's murder 
was preventable. Had the government simply done its job and 
maintained a secure border, the murder would never have been 
able to enter our country, and Ronald would still be with us.
    Building a wall on the U.S.-Mexican border will not stop 
all illegal immigration, but it is a necessary first step and, 
consistent with experiences in San Diego and Yuma, has the 
potential to dramatically reduce it. The United States will 
also need to deploy additional human, technological, and legal 
resources; in addition, predictable enforcement of immigration 
laws in the interior of the United States will restore the rule 
of law and deter would-be illegal immigrants from attempting to 
circumvent the laws in the first place.
    We hope that our witness from the National Border Patrol 
Council, Mr. Brandon Judd, will speak more broadly about what 
our officers and agents on the ground see on the border every 
day and what they need to do to do their job.
    This subcommittee will continue robust oversight over these 
actions to determining how they are meeting the threat posed by 
a porous border, and we want to make sure that taxpayer money 
is being used well, that the barrier is being built in an 
effective way, and we are going to continue to monitor this as 
this unfolds over the next year-and-a-half.
    Mr. DeSantis. I thank the witnesses for being here today 
and for their testimony. And with that, I yield to--sitting in 
for my friend from Massachusetts, the ranking member Mr. Lynch, 
is Mr. DeSaulnier.
    Mr. DeSaulnier. Thank you, Mr. Chairman, and I want to 
thank you and our staffs on both sides and the witnesses today 
on what is very emotional, I know--and legitimately for some of 
the witnesses today--issue. But I look forward to public, 
transparent analysis where we have an objective needs 
assessment, risk assessment, and an engineering assessment as 
to the cost-benefit of this potentially huge investment.
    And Ms. Gibboney, I can't imagine--being a father of two 
sons who lost a parent to violence, I can't imagine what it is 
like to be here to sit on this anniversary. So for your loss 
and your passion to see something is done about that I am very 
respectful. Insomuch as we may have some differences, I 
understand I think as best I can of what has brought you here 
today and the earnest desire you have to see that--to make sure 
that other parents will never be in the position you are in.
    Ms. Espinoza, from what I have read in your work, 
similarly, not as dramatically perhaps, but more globally as 
you see many, many cases, I very much respect your work and the 
ultimate desire that you have.
    And, Mr. Judd, to you and your colleagues, great respect 
for the work that you do. I know when I was in the California 
Legislature, many times having conversation with our State law 
enforcement people about the border, the difficult jobs you do 
and the Department of Justice in California when they work with 
you on that.
    And the other two witnesses, thank you for being here.
    Let me just add to that that this crucial work we take is 
very serious. Again, it should be fact-based, looked at, this 
issue so that we identify what measures will work, what the 
benefits would be and what the cost would be to the taxpayers 
and all Americans.
    The wall that the President is proposing simply won't work 
in my view and in others' and will divert resources away from 
the areas critical to protecting the health, safety, and 
security of Americans.
    Recently, Oversight Committee member Will Hurd, who 
represents a district covering 800 miles of the border, 
addressed his concerns with the President's plan. He wrote an 
op-ed in the Washington Post in which he called the wall, 
quote, ``the most expensive and least-effective way to secure 
the border.'' He also wrote, quote, ``True border security 
demands a flexible defense in-depth strategy that includes a 
mix of personnel, technology, and changing tactics, all of 
which come at a lower price tag than a border wall.'' I am in 
agreement with my colleague. The proposed wall is incredibly 
expensive with little if any return on the investment.
    Despite the fact that the President claims that the wall 
would cost $10-$12 billion, most analysis place the number far 
higher. The Department of Homeland Security conducted an 
internal study that estimated the border wall would cost nearly 
$22 billion in upfront construction costs alone. Other 
independent and congressional studies have estimates up to $40 
or even $70 billion. This is all in contrast to the programs 
the same administration has proposed getting, including those 
that help everyday Americans and provide returns to the 
American public.
    It is troubling that the President's budget proposes 
billions towards a wall while slashing critical domestic 
programs, including his proposed budget that would cut nearly 
$6 billion or nearly 20 percent of the funding to the National 
Institutes of Health, jeopardizing medical advancements to cure 
chronic diseases and save lives, including cancer.
    Additionally, the President's proposed wall will undermine 
our national security by redirecting funds from programs that 
actually work to secure our border. This money would instead be 
pulled from important airport security programs that help 
secure these major points of entry where drugs are much more 
likely to be trafficked into our borders.
    Despite the President's rhetoric during the Obama 
administration, the number of unauthorized immigrants into the 
United States dropped from 12.2 million to 1.1 million in 2014. 
During that same time, more people became unauthorized to be in 
the United States simply by overstaying visas than by coming 
across the U.S. border with Mexico. At least 40 percent of all 
individuals in the United States illegally have overstayed 
their visas rather than coming across the border.
    The President's proposal to build a solid concrete wall 
across the length of our southern border fails to be either 
workable or cost-effective. His request for Congress to 
appropriate billions of dollars is a shortsighted request for 
Congress and breaks one of his most fundamental campaign 
promises that the American people would not pay a dime for the 
wall on the U.S.-Mexico border.
    Mr. Chairman, we have a short video to play at this time.
    Mr. DeSantis. Without objection.
    [Video shown.]
    Mr. DeSaulnier. Thank you, Mr. Chairman.
    When announcing his presidential bid, the President stated, 
and I quote, ``I would build a great wall and nobody builds 
walls better than me. Believe me. And I'll build them very 
inexpensively. I will build a great, great wall on our southern 
border and I will have Mexico pay for that wall. Mark my 
words,'' end of quotes.
    At that February 2016 campaign rally, the President 
reiterated, ``We will build a great wall along our southern 
border and Mexico will pay for that wall 100 percent.'' Of 
course, these are only a few of the countless times the 
President has overpromised and underdelivered for the American 
people.
    Now, less than 100 days into his presidency, he has 
completely abandoned this promise and changed his tune. Earlier 
this week, President Trump tweeted that Mexico will pay for the 
wall, quote, ``eventually and in some form.'' With his track 
record, nobody should believe that. Instead, he is demanding 
that American families have the burden of finding additional 
billions of dollars to build this wall. Until earlier this 
week, he was signaling that he would be willing to shut down 
the government to get the leverage to take this money out of 
the wallets of hardworking American families.
    We have real problems to address in securing our borders, 
we all agree, but the President's proposed order wall does 
nothing to advance--nothing or very little to advance our 
national security. Not only should it not be built but it 
absolutely should not be built on the backs of hardworking 
American families.
    I yield back.
    Mr. DeSantis. The gentleman yields back.
    I will hold the record open for five legislative days for 
any members who would like to submit a written statement.
    We will now recognize our panel of witnesses. I am pleased 
to welcome Mr. Steven Camarota, Ph.D., director of research, 
Center for Immigration Studies; Mr. Brandon Judd, president, 
National Border Patrol Council; Ms. Maria Espinoza, director, 
the Remembrance Project; Ms. Agnes Gibboney, mother of Ronald 
da Silva, who was killed by an illegal immigrant 15 years ago 
today; and Mr. Seth Stodder, former assistant secretary for 
Border, Immigration, And Trade Policy, Department of Homeland 
Security. Glad you were able to get here. Welcome to you all.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify, so if you could all please rise and raise 
your right hand.
    [Witnesses sworn.]
    Mr. DeSantis. Thank you. Please be seated.
    All witnesses answered in the affirmative.
    In order to allow time for discussion, please limit your 
testimony to five minutes. Your entire written statement will 
be made a part of the record.
    Mr. Camarota, you are recognized for five minutes.

                       WITNESS STATEMENTS

                  STATEMENT OF STEVEN CAMAROTA

    Mr. Camarota. Thank you. I would like to thank the chair 
and the committee for inviting me. My name is Steven Camarota, 
and I am director of research at the Center for Immigration 
Studies. My testimony today is based on a recent report 
published by the Center. This analysis reports the fiscal costs 
of illegal border crossers based on some fiscal estimates 
developed by the National Academy of Sciences Engineering and 
Medicine earlier this year--or I should say last year--for 
immigrants by education level. These calculations are based on 
some pretty well-established facts about illegal immigrants.
    First, there is agreement that illegal immigrants 
overwhelmingly have modest levels of education. The vast 
majority either didn't graduate high school in their home 
country or have only the equivalent of a high school education. 
There is also agreement that immigrants who come to America 
with modest levels of education, regardless of legal status, 
create more in cost for government than they pay in taxes.
    Now, taking the likely education level of illegal border 
crossers and combining them with the net fiscal estimates from 
that National Academies study shows that on balance, if you 
take all the taxes that they're likely to pay in their 
lifetime, given their education levels, and all the services 
and costs they create, there is a net drain on taxpayers of 
about $75,000 per illegal border crosser or about $7.5 billion 
per hundred thousand illegal border crosser.
    This figure is only for the original illegal immigrant. It 
doesn't count their descendants. We can do that. That's also in 
the study from the Academies. If we apply those estimates, then 
the cost would rise to about $94 billion per illegal immigrant 
and their descendants, or about $9.4 billion per 100,000.
    Now, to be clear, the fiscal costs of illegal immigrants is 
not due to the fact that they don't want to work. It's not even 
due to the fact that many work off the books. Rather, it 
reflects their educational attainment. In the modern American 
economy, people with this skill profile, native-born, 
immigrant, or--legal immigrant or illegal immigrant, pay less 
in taxes than they use in services. There's pretty much 
absolute agreement on that.
    Now, what these cost estimates do is give us an idea not 
only of what illegal border crossers cost, but they let us 
evaluate the likely savings that different enforcement 
strategies create for taxpayers versus what these enforcement 
strategies might cost. So, for example, a newly released study 
by the Institute for Defense Analyses indicates that perhaps 
1.7 million new illegal immigrants will successfully cross our 
border in the next 10 years.
    Now, if that's the case, and no one knows what the future 
holds of course, but if that were to happen, and given these 
costs, it means that if we were to stop just 9 to 12 percent of 
those expected crossers over the next decade, it would generate 
$12-$15 billion in savings, which might be enough to pay for a 
wall. In effect, the wall could pay for itself even if it only 
kept out a small fraction of the people expected to come.
    Now, recently, the Cato Institute evaluated my analysis, 
and they argued that the illegal immigrants weren't as 
unskilled as I thought they were based on my analysis of the 
data. But even so, they still found that the average illegal 
border crosser would pay 43--creates a fiscal deficit of 
$43,000 or $4.3 billion per hundred thousand illegal crosser.
    Now, Cato in their analysis also tries to argue that State 
and local government costs, which are in the National Academies 
studies, shouldn't count because it's the Federal Government 
that is building the wall. Now, this argument doesn't make 
sense to me but ultimately that's up to Congress whether to 
count the State and local costs, but it seems reasonable to me 
to do so.
    Now, finally, I just want to make one more point about the 
costs that come from the National Academies. They employ a 
concept called net present value, which calculates the fiscal 
impact, but this concept, which is commonly used by economists, 
has the effect of reducing the size of the drain that unskilled 
immigrants will create because it discounts the costs in the 
future. If you didn't do that discounting, the costs are much 
higher, about roughly double, about $150,000. So if you want to 
do a different calculation where you don't discount the future, 
that's what you would get.
    But the bottom line from this analysis is that unskilled 
immigration, which characterizes most illegal immigration, is 
very costly to taxpayers given their education and given the 
realities of the modern American economy that pays the less 
educated relatively low wages, coupled with the existence of a 
large and well-developed administrative state. It's not--the 
fiscal costs they create is not a moral defect on their part. 
It's simply the reality of education.
    Thank you for allowing me to testify, and I look forward to 
your questions.
    [Prepared statement of Mr. Camarota follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Mr. DeSantis. Thank you.
    I now recognize Mr. Judd for five minutes.

                   STATEMENT OF BRANDON JUDD

    Mr. Judd. Chairman DeSantis, Congressman DeSaulnier, I 
appreciate the opportunity to be here today. In the--I want to 
emphasize first off I will not advocate for 2,000 miles' worth 
of border. That is just not necessary. But what I will advocate 
for is a border wall in strategic locations, which helps us 
secure the border.
    I want to point out what happened and give you a historical 
analysis of why the border is unsecure today. In the mid-'80s, 
the United States faced its first illegal immigration crisis. 
The Border Patrol had approximately 4,000 agents who were 
charged with patrolling nearly 2,000 miles of the United 
States-Mexico international border. Other than barbed wire 
fences owned by ranchers, there were no vehicle or pedestrian 
barriers to impede illegal border crossers.
    The Border Patrol was overwhelmed, and Congress chose to 
deal with the influx of illegal aliens entering the United 
States by passing the Immigration and Reform Act of 1986. The 
act promised to secure the border and ensure the United States 
was never put in the same situation again. The act failed. It 
failed in large part because the United States government put 
the cart before the horse. Without securing the border first, 
the government legalized several million persons who willfully 
violated U.S. law. By so doing, we broadcast a clear message to 
the world that our laws could be made void if enough people 
entered the country illegally. The message was heard worldwide, 
and illegal immigration exploded.
    After of IRCA of 1986, illegal border crossings in high 
numbers took place almost exclusively in San Diego, California, 
and El Paso, Texas. The Border Patrol thought if it could 
control these two corridors, they would be able to control 
illegal immigration and narcotics smuggling. They threw the 
vast majority of their resources at these areas but left other 
areas like the El Centro, California; the Yuma, Arizona; and 
the Tucson, Arizona, Border Patrol sectors wide open. The 
prevailing thought was that the infrastructure did not exist on 
either side of the border to allow smuggling organizations to 
move their operations to the inhospitable and barren desert 
areas of Arizona. The prevailing thought was wrong.
    For more than 10 years, the Tucson Border Patrol sector was 
overrun because we did not have the foresight to realize that 
smuggling is big business and that the cartels are extremely 
flexible and adaptable. In essence, we created the problem in 
Tucson, and the citizens and ranchers paid for our mistakes.
    Unlike today, in the mid-1980s and early 1990s, ISIS didn't 
exist, criminal cartels didn't control every facet of illegal 
activity on the border, and transnational gangs weren't 
prevalent in the United States. Today, however, this is our 
reality. And if we refuse to learn from failed border security 
policy and operations of the past, we will never secure the 
border.
    We must take a proactive approach, and it must start with 
the proper mix of technology, infrastructure, and manpower, and 
it must be comprehensive. We must acknowledge that shutting 
down the Rio Grande Valley sector without addressing Laredo, 
Del Rio, and Big Bend will just create the same type of vacuum 
that we created in Arizona.
    Part of the proper infrastructure, the wall, is being 
heavily debated, and as an agent who worked in two of the 
busiest sectors in the history of the Border Patrol, I can 
personally tell you how effective border barriers are. When I 
got to the Tucson sector, we had next to nothing by way of 
infrastructure, and I can confidently say that for every 
illegal border crosser that I apprehended, three got away. The 
building of barriers and large fences, a bipartisan effort, 
allowed agents in part to dictate where illegal crossings took 
place and doubled how effective I was able to be in 
apprehending illegal border crossers.
    As an agent who has extensive experience working with and 
without border barriers and as the person elected to represent 
rank-and-file Border Patrol agents, I can personally attest to 
how effective a wall, in strategic locations, will be.
    I implore both sides of the aisle to quit politicizing 
border security and illegal border entries and work with the 
men and women of the United States Border Patrol by providing 
the proper technology, infrastructure, and manpower. By so 
doing, Border Patrol agents will secure the border.
    I appreciate your time and look forward to answering all of 
your questions. Thank you.
    [Prepared statement of Mr. Judd follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Mr. DeSantis. I thank the gentleman.
    Ms. Espinoza, you are up for five minutes.

                  STATEMENT OF MARIA ESPINOZA

    Ms. Espinoza. Mr. Chairman and distinguished members of the 
committee, I am honored to be here before you today to testify 
on issues associated with national security.
    My name is Maria Espinoza. My testimony is based upon my 
nearly eight years of traveling across the country with the 
Remembrance Project, an organization that advocates for those 
families, our country's previously most forgotten, whose loved 
ones were killed by illegal aliens.
    My testimony is designed to assist you and others to 
understand the urgency of the immediate need to secure our 
country. Americans will continue to be under assault until the 
wall is built and the border secured.
    I have attended murder trials, criminal and civil hearings, 
testified in other States, and participated in roundtable 
discussions with sheriffs. I have made presentations and have 
spoken with groups all over the United States about the most 
devastating of all impacts of illegal immigration, the loss of 
a life. I have had hundreds of firsthand experiences with many 
Stolen Lives families.
    For nearly 20 years, families of Americans slain by illegal 
aliens have given heart-wrenching congressional testimony like 
the one you're about to hear from Mrs. Gibboney about the 
tragic and violent killings of loved ones perpetrated by 
someone who should not have been in the country in the first 
place. The irony, while it seemed as though the politicians 
listened and even publicly gave the families their condolences, 
congressional leadership, the bodies of both houses, Democrat 
and Republican, have failed to enact the very measures that 
would have saved American lives.
    America has spoken. We want the wall built right away.
    Today, I speak on behalf of the Remembrance Project 
Advocacy, Incorporated, where we proudly support our President 
and an America-first national agenda. The wall is a foundation 
upon which a comprehensive border policy can and must be built. 
It is of the utmost urgency.
    First, for a future perspective on the horrors of a 
national open-borders policy, let's look at Texas over the past 
six years. According to Department of Homeland Security status 
indicators, over 217,000 criminal aliens have been booked into 
local Texas jails between 2011 and 2017, committing nearly 
600,000 crimes ranging from assault of which there were nearly 
70,000, to over 6,000 violent sexual assaults of women and 
children and homicides which number nearly 1,200, all 
preventable.
    These are only a sampling of the heinous crimes they have 
committed. Department of Homeland Security reports that a full 
two out of three of these crimes were committed by aliens here 
illegally. Those who falsely state that a great border wall 
would not work either don't know their history or are in 
denial. To those border wall naysayers, doubters, and deniers, 
I can assure you that a wall will work.
    Today, where walls exist on our own southern border, 
illegal crossings have been drastically reduced by over 94 
percent. In the Arizona Yuma sector, arrests of illegal alien 
crossings dwindled from over 138,000 to just over 8,300. The 
known attempts to enter and those who escape dwindled to an 
equally minimal number compared to the hundreds of thousands 
who entered and evaded arrests in previous years.
    Yes, your honorable committee men and women, walls do work. 
To falter now has dire future consequences to Americans and 
America's future. If not built when another open-borders 
President is elected, the technological deterrence and all-
important army of border agents will be reduced or entirely 
removed allowing this holocaust of American killings to resume. 
This unwise policy must not be allowed to be perpetrated upon 
our families.
    Based upon preliminary information, we believe that the 
American Stolen Lives may number in the tens of thousands, but 
because the government at every level has previously failed to 
identify correctly the illegal alien killers, no one knows for 
sure. We welcome Congress' commitment to assure an accurate 
accounting and believe that all Americans, if they knew the 
true human cost of this invasion, would demand the wall be 
built immediately. Just last month, there was a string of 
reports of heinous crimes committed by illegal alien gang 
members.
    The Remembrance Project Advocacy stands behind President 
Trump with the American people in demanding that Congress 
immediately fund the construction of the wall. All of you here 
today and all of Congress bear a duty not just to your 
constituents but to all Americans to preserve our sovereign 
nation and keep our communities safe by first and foremost 
securing our borders. I ask you to do all you can to stop these 
preventable killings and murders that permanently separated 
families from their loved ones. Please, not one more stolen 
life.
    Thank you. God bless you, and God bless America.
    [Prepared statement of Ms. Espinoza follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Mr. DeSantis. Thank you.
    Ms. Gibboney, you are up for five minutes.

                  STATEMENT OF AGNES GIBBONEY

    Ms. Gibboney. Thank you for inviting me here today.
    My name is Agnes Gibboney. I was born in Budapest, Hungary. 
I was two when my family left in January of 1957 as refugees. 
We immigrated to Brazil where we lived for 13 years legally 
trying to apply to come to the United States. My parents, my 
brother, myself legally immigrated to the United States. We 
followed all the rules, the laws. We followed all the 
background investigation, thorough background investigation and 
thorough medical exams by American Consulate appointed and 
approved doctors. We also had to have character witnesses 
attesting that we had good moral standing, and my father was 
required to have a job contract.
    Today, April 27 marks my son Ronald da Silva's 15th 
anniversary of his murder. Ronald was my first born, my only 
son. His father, my first husband, was a Brazilian national. 
Ronald was a good person, kind, considerate, respectful, 
loving, funny, and sometimes a practical joker. He helped my 
parents, and Ronald was a good big brother to his two sisters. 
He was always there when anyone needed his help.
    Ronald went to visit his two children, Matthew and Marcel, 
and while standing on the driveway, he was shot, a bullet that 
was intended for someone else. The shooter, the murderer, was 
an illegal alien with a long criminal record who had been 
previously deported. Immediately after the shooting, he fled to 
Mexico. His wife was depositing her welfare check at the credit 
union so he could withdraw it in Tijuana so he can live on it.
    He eventually turned himself--returned to the United 
States, and was sent to prison. He's due to be released in two 
years and seven months. I am afraid that California won't 
notify ICE of his pending release. It took me almost 11 years 
to find out he had an ICE hold.
    Our borders would have been--if our borders would have been 
secured, Ronald would still be here, along with thousands of 
innocent victims killed by illegal aliens. Many criminal 
illegal aliens deported return to our unsecured borders to 
continue victimizing American citizens. One life lost is one 
too many. We need a barrier, we need a wall, and more Border 
Patrol officers to protect us all.
    Ronald's murder devastated my family. My only sibling, my 
brother Laszlo, had a massive stroke at age 51 due to the 
overwhelming stress and despair. He died the following day only 
four months after Ronald was murdered. You see, my brother was 
married to my sister-in-law, who is from Mexico, and that 
devastated them. My father gave up living. He wanted to die to 
be with Ronald, his first grandchild. It took him 11 years of 
suffering. My mother tried to be so hard and strong for me and 
the family. She was our rock, but I could see the incredible 
pain in her eyes. She, too, is in Heaven now and they are 
together, my son, my brother, father, and mother.
    I have never seen my husband Mark, a highly educated man, 
retired deputy chief of El Monte PD where my son was murdered, 
so helpless. Watching the devastation, the panic, the pain, 
there was nothing he could do to undo or fix what happened. He 
was the one to call me at the campground where I was camping 
with my two daughters with Girl Scouts to tell me that Ronald 
was shot in the shoulder and he was expected to survive. We 
immediately drove home. As I walked in the house, he hugged me 
and said I am sorry. I told him I was going to the hospital to 
be with Ronald so when he came out of surgery, he wouldn't be 
alone. It was then that he said I'm sorry, Ronald didn't make 
it.
    Now, I live a life sentence of pain and suffering wondering 
what would Ronald look like? Would he have gray hair at age 44? 
Would he be married? Would he--what would he be doing? I miss 
his beautiful smile, his warm bear hugs, his sense of humor, 
our talks. I miss his voice, his scent. I miss family get-
togethers with all of us present. My family is permanently 
broken and separated. I can't travel anywhere in the world to 
see him ever again. I will forever miss all the tomorrows and 
all that was taken from me, all because of broken open borders.
    I miss watching him iron his clothes and spend a long time 
fixing his hair, but what I miss the most is him calling me 
mommy. I miss everything. I simply miss my son. All I have left 
are his clothes, old photos, baby shoes, baby bottles, some 
toys and memories. I live with this emptiness, a hole in my 
heart longing for my son, and I live with the daily fear of 
losing another child or family member.
    We cannot afford to lose one more life. Ronald is just one 
life. His death is not an isolated case. Deputy David March, 
murdered a couple days after Ronald in a neighboring town, his 
murderer also fled to Mexico and he also had been previously 
deported. His widow Teri and I became friends. We would compare 
our pain, our hurt, our grief, and often cry together. Officer 
Don Johnston, a coworker of my husband, was shot by someone who 
overstayed his visa. He became paraplegic. He ultimately died 
of his injuries.
    Hundreds of victims' innocent lives. I wonder how many more 
are there that we don't know about because our government does 
not keep statistics on illegal aliens' crimes. What an overall 
problem it is for a nation that so many U.S. citizens are 
killed on a daily basis by illegal aliens who shouldn't be in 
our country to begin with.
    When I became a U.S. citizen, the first President I voted 
for was President Ronald Reagan, who signed an amnesty bill 
which was supposed to be followed by securing our borders and 
enforcing immigration laws within our country, including 
verifying rights to employment. These things have never been 
done, and the conditions have gotten worse every year. The 
irony is my family and I legally immigrated to the United 
States and an illegal murdered my son who should have never 
been in the country to begin with.
    I urge you to do what so many politicians have promised for 
years: a secure border. Eliminate incentives for illegal aliens 
to come here, and enforcement of existing immigration laws.
    It is too late for my son Ronald and the thousands killed 
by illegal aliens, but there are so many lives that can be 
saved if you would just take action and put Americans first.
    Our President Donald Trump deserves more respect. He is 
working so hard to protect our country, protect our 
Constitution. Illegal aliens have no constitutional rights. A 
country without border is no country.
    You may say that it is inhumane to deport illegal aliens 
who didn't care about breaking our laws. How inhumane is it 
that my son Ronald and thousands of innocent victims' lives 
were cut short? It is the responsibility of the government to 
keep us safe, and our President Trump is working to accomplish 
that. Please do not stand in his way. Work with him.
    Thank you for your time.
    [Prepared statement of Ms. Gibboney follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Mr. DeSantis. Thank you.
    Mr. Stodder, you are up for five minutes.

                   STATEMENT OF SETH STODDER

    Mr. Stodder. Thank you so much.
    Chairman DeSantis, Representative DeSaulnier, and 
distinguished members of the subcommittee, thank you for 
inviting me to testify today to present my views on the 
administration's proposed wall across the U.S.-Mexico border.
    I've been around this issue for a while, having served in 
senior law enforcement and Homeland Security positions in both 
the Bush administration, as well as the Obama administration. 
And in my view, President Trump's proposal to build a wall 
across the entire U.S.-Mexico border is deeply misguided and 
Congress should not support it.
    Building a wall would be a massive waste of billions of 
taxpayer dollars and unfortunately we'll get very little in 
return because the wall won't help us address any of the most 
pressing challenges we face at the border. In fact, it will 
actually make us less safe. This is for several reasons.
    First, the wall attacks the wrong problem: the fear that 
America is somehow being overwhelmed by massive numbers of 
Mexican economic migrants seeking to cross the Rio Grande to 
take our jobs. This is an old, outdated talking point from the 
1990s. While of course illegal Mexican migration still occurs, 
the reality is that the Border Patrol apprehensions are at 
historic lows.
    It's true that in the 1990s the border was out of control 
with illegal entries from Mexico approaching two million a 
year, but since then, we've dramatically strengthened 
enforcement and brought far greater control to our border. 
We've tripled the size of the Border Patrol. We've deployed 
sensors and aerial drones. And yes, we have constructed 
hundreds of miles of fence in strategic locations, mostly in 
urban areas like the double layer fence in San Diego.
    This blend of enforcement efforts has been extraordinarily 
successful, making it far harder and more expensive for people 
to cross illegally. But it only tells part of the story. The 
other more important point is that Mexico is changing 
dramatically. Over the last two decades since NAFTA, Mexico has 
grown into the world's 11th-largest economy and our third-
largest trading partner. There are good jobs in Mexico, and 
people are staying to take them.
    What's the result of all this? According to the Pew 
Research Center, more Mexicans now leave the United States and 
head north, and border apprehensions of Mexicans are the lowest 
in decades with overall apprehensions now 75 percent less than 
at the high watermark of 2000 when 1.6 million people were 
apprehended by the Border Patrol.
    Of course, some do still try to cross and some do get in. 
Border enforcement will never be perfect in the same way that 
even the best urban police forces will never be able to prevent 
all crime. But the reality is that the investments this 
Congress and the administrations of both parties have made in 
securing the border have paid off. Our border with Mexico is 
far more secure than ever before.
    Now, this is not to suggest that we don't have pressing 
challenges at the border. We do. Unfortunately, a wall is not 
going to help us address any of them. First, the wall will not 
make us more secure against terrorism. There is little evidence 
of terrorists seeking to enter the United States across our 
Southwest border. One of the most important reasons for this is 
our close partnership with Mexico. We work together to share 
and analyze information on travelers for the Western Hemisphere 
so we can spot known or suspected terrorists before they get 
here far away from our Southwest border. If the fight over the 
wall poisons the security partnership with Mexico, it will make 
the American people less safe.
    Second, the wall will not stem the flow of illegal drugs. 
This is for the simple reason that drugs for the most part are 
smuggled into our country in the thousands of cars and trucks 
that enter our official ports of entry such as San Isidro. No 
one is proposing that we build a wall across Interstate 5 or 
block all trade or travel with Mexico, and a wall won't stop 
drugs from being smuggled through tunnels or by aircraft.
    Third, a wall will not help us fight the drug cartels. Most 
senior cartel leaders don't travel to the U.S., but if they do, 
they don't wander across the Sonoran Desert. But if Mexico 
reduces its cooperation with ICE and DEA in retaliation for our 
effort to build that wall, it will be far more difficult for us 
to successfully build cases against key figures or locate them 
for arrest in Mexico.
    And finally, the wall will not help us address the most 
pressing migration challenge we face, which stems from the 
crisis in Central America with thousands of Guatemalan, El 
Salvadoran, and Honduran families fleeing violence, extreme 
poverty, and environmental crises and coming to our border to 
seek asylum here. Most of these migrants are coming to our 
ports of entry or voluntarily turning themselves in to Border 
Patrol agents between the ports of entry in order to claim 
asylum. Under U.S. international law, we can't just build a 
wall and bounce them off. We must allow credible asylum claims 
to be heard in our immigration courts, and a wall will only 
channel those claims to the ports of entry. It won't prevent 
them from coming in the first place.
    So a wall is not going to help us with any of the most 
pressing challenges we face at the border. Back in the 1970s, 
Senator Proxmire used to hand out what he called the Golden 
fleece award to highlight wasteful Federal spending. I can't 
think of any program that would make Senator Proxmire more 
proud than the border wall, the ultimate golden fleece of the 
American taxpayers with the billions going to contractors 
seeking to build a wall that will provide no security benefit 
to the American people.
    Republican Representative Will Hurd puts it well. 
``Building a wall is the most expensive and least-effective way 
to secure the border.'' That's sad enough, but even sadder is 
that the effort to build a wall will divert resources away from 
measures that will actually help address the priority 
challenges at the border. Our immigration system is indeed in 
crisis, straining from the flow of Central American asylum-
seekers.
    We need more resources specifically devoted to addressing 
this challenge, and in the questioning, I'm happy to give my 
thoughts on that. But suffice it to say a wall's not going to 
help, nor will it make us safer from terrorism or organized 
crime. The wall is an extremely bad idea, and I hope Congress 
does not support it. Thank you.
    [Prepared statement of Mr. Stodder follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    Mr. DeSantis. I thank the gentleman. I will now recognize 
myself for five minutes.
    One of the frustrating things with this issue is just it 
has been a failure theater in this country for over 30 years. I 
mean, Mr. Judd, you have mentioned it. Ms. Gibboney, the 1986 
amnesty, we are going to do an amnesty bill, secure the border, 
no more illegal immigration. That is going to be a thing of the 
past. And illegal immigration quadrupled between then and now 
in terms of the numbers that are here.
    In 1996 we were supposed to have an entry-exit visa system 
implemented, and that is different than this wall issue but 
there are millions of people who come legally and overstay 
their visa. To this day, we do not have an entry-exit visa 
system.
    And then in 2006 with the support of people like Senator 
Hillary Clinton, Chuck Schumer, Joe Biden, Congress 
overwhelmingly passed the Secure Fence Act, which was supposed 
to provide 700 miles of double-layered fencing. And in areas 
where that has been done, it has been very effective, and yet 
Congress immediately gutted the next year, and we have had 
about I think 36 miles total.
    And so we have got to get it right. We have been toiling 
with this for decades. Let's get it right and let's do it.
    Now, Mr. Camarota, the examples of Israel and San Diego 
suggest that if you do effective fencing or a wall, that that 
could actually reduce illegal immigration much more than your 
estimate. So do you agree--you took a very conservative 
estimate about how a wall--how much illegal immigration a wall 
would prevent.
    Mr. Camarota. Yes, I think it is pretty conservative. The 
experience with walls is that they do work where they are but 
where they're not, people tend to go around them. And there 
are, as you say, visa overstays, which is a very important 
question. But where they are, yes, they work quite effectively. 
That's for sure.
    Mr. DeSantis. Now, the strain on the taxpayer of people who 
come illegally, their medical costs that get borne by the 
taxpayer usually?
    Mr. Camarota. Right. That can often happen. People go up to 
emergency rooms or otherwise free clinics so that's a big area 
of cost.
    Mr. DeSantis. Education costs?
    Mr. Camarota. Education is another one. We spend about 
$17,000 on each child in the United States very, very roughly 
and have may be over a million illegal immigrant children in 
U.S. schools.
    Mr. DeSantis. And then law enforcement people say, well, 
people who come illegally don't necessarily commit crimes at a 
higher or lower level, and I don't know if that is true, but 
even if it is, that is taxing law enforcement, correct, because 
those would be people if the border was secured, that law 
enforcement wouldn't have to worry about it all, correct?
    Mr. Camarota. Perfectly reasonable. The data is all over 
the place on that. It's not clear whether illegals have a 
higher crime rate. But I think as we've heard today, that's 
really not the point, is it? If someone's not even supposed to 
be in the country and they kill someone, that is clearly 
preventable. And I think that's what frustrates the American 
people so much.
    Mr. DeSantis. Now, your study, it doesn't even take into 
account I don't think the noneconomic costs associated with 
having a porous border and allowing illegal immigration. I 
mean, you know, drugs, human trafficking, obviously the crime 
as we have seen, that is not even reflected at all in your 
study, correct?
    Mr. Camarota. No, I didn't include any of the costs for the 
children of illegal immigrants, too.
    Mr. DeSantis. Okay. So there is clearly--I think with the 
victims we have seen, I mean, there is immense cost to that 
goes with that. So you think that--your study, it is probably 
conservative in terms of the number of illegal entries that it 
could prevent, but it is also conservative in terms of some of 
the benefits because you would be talking about drugs, you 
would be talking about crime, you would be talking about 
reducing other bad things associated with having a porous 
border. Is that fair?
    Mr. Camarota. Yes, I think that's fair. I mean, look, a lot 
of these things you can't put a dollar amount on ----
    Mr. DeSantis. Now ----
    Mr. Camarota.--as we have heard.
    Mr. DeSantis.--in terms of paying for it, are there ways, 
whether it is what Senator Cruz suggested by taking the seized 
drug asset money, which is billions and billions of dollars, 
others have said take some of the illegally obtained refundable 
tax credits by, you know, that is $7-8 billion I think you 
could save. So do you agree there are ways where that money can 
be identified and used that don't necessarily involve just 
having the American taxpayer pay for it directly?
    Mr. Camarota. Yes. You've mentioned two. The other is the 
tax remittances that flow out of the United States, tens of 
billions of dollars. Put a tax on them and you could generate 
income as well.
    Mr. DeSantis. Now, Mr. Judd, I think you agree that when 
you have areas where these barriers have been effective like 
San Diego, obviously the bread and butter is still going to be 
you guys out there, but it really is a force multiplier because 
one of your agents can then cover a much larger territory if 
you do have that barrier. Is that right?
    Mr. Judd. With a barrier, it's estimated that all we need 
is one agent per three, four linear miles. Without a barrier, I 
need one agent per linear mile. So the cost effectiveness of a 
barrier in manpower is--it's extremely successful. So, yes, we 
need to--we absolutely need to look at where we have to put the 
wall, and it will allow us to dictate where crossings take 
place and allow us to be more effective.
    Mr. DeSantis. And the Secure Fence Act had 700 miles out of 
the 2,000. Do you think that makes sense? Is that probably 
enough? I don't think anyone is saying you need 2,000 miles, 
correct?
    Mr. Judd. I do. In fact, Chief Ron Vitiello recently came 
out and said the exact same thing that I've been saying for two 
years, that we need it in strategic locations. And again, that 
700 miles is about what it is.
    Mr. DeSantis. Now, you are critic of the catch-and-release 
policies of the Obama administration it is fair to say?
    Mr. Judd. Yes.
    Mr. DeSantis. So doing a lot of things, we need to support 
you is important, but you can do all those things, and if there 
is an administration and power that doesn't really have the 
will or that ties your hands behind your back, then you can 
have the best of intentions. It is going to be difficult to get 
this problem right. Is that accurate?
    Mr. Judd. It is. And what's extremely frustrating is to 
cross the border at a place other than a port of entry, that's 
a crime. When we see these individuals, what we're effectively 
doing through the catch-and-release program, we're driving the 
criminal smuggling organizations and we're incentivizing them 
to allow these individuals to cross the border at places other 
than ports of entry. Every single one of these individuals 
could legally present themselves at a port of entry, but it's 
the smugglers who are forcing them to cross at places other 
than a port of entry, which then puts extreme pressure on us, 
and it takes people out of the field, which then opens up holes 
that allows smugglers to bring across even higher cost value 
traffic such as heroin and potentially even people from Middle 
Eastern countries. So it's a huge problem.
    Mr. DeSantis. So you think in terms of the issues with not 
having a secure border, I mean, you think the drugs--you do 
think drugs are coming across illegally and that's a major 
issue?
    Mr. Judd. I know they are. And in fact, if we really think 
that more drugs are coming across the ports of entry, we're 
absolutely wrong. All you have to do is pull agents out of the 
field, and that's what smugglers are doing by crossing these 
family units that are coming over here and asking for asylum. 
What we're doing is we're creating holes and we're allowing the 
smugglers to bring across their higher-value products such as 
heroin.
    Mr. DeSantis. Ms. Gibboney, thank you for your testimony. 
And this is something that is very personal to you to get this 
border under control, correct?
    Ms. Gibboney. Absolutely.
    Mr. DeSantis. And I think you have said before that you 
would be happy to take your own shovel and work to build it 
even in the 120-degree heat?
    Ms. Gibboney. I was just going to say that. Yes, I would be 
happy to go and work on the wall myself. I know it's not 
feasible, but trust me, I would be there.
    Mr. DeSantis. And that is because you don't want to see 
anyone else to be in your shoes someday?
    Ms. Gibboney. Never. I--it's such a pain. It's so 
difficult, especially days like today that I don't even wish it 
upon the guy that murdered my son. I don't wish this pain on 
his family. That's how painful. I mean, you would think that I 
would wish him a lot of harm. I don't. But nobody should have 
to suffer through something like this because if my son would 
have been sick, I would have resigned myself that it was his 
time to go, that it was God's wishes. But my son's life was 
cowardly taken.
    Mr. DeSantis. And I think you also mentioned in your 
testimony, and this is going to be an issue that we are going 
to have to come on in a different hearing I think, but your 
son's murderer is in prison, will eventually get out. You are 
worried that California may not notify ICE. And, you know, we 
have had Jamiel Shaw here, who is also from California. You 
probably know Jamiel.
    Ms. Gibboney. Yes.
    Mr. DeSantis. And, you know, you had, you know, illegal 
aliens, they were involved in criminal activity, released by 
the State, and then murdered Jamiel Shaw. We had Casey 
Chadwick, her mother here last year, who you had a guy from 
Haiti who is illegally in the country, served a sentence for 
manslaughter. I think it was 12, 13 years. Connecticut, ICE did 
not send him back, released, and then he killed Casey. So that 
is going to be an issue I think that we are going to have to 
get right because if you know someone has already served a 
sentence, they are not here legally, releasing them into 
society to me puts the American people in grave risk. And so I 
think you are right to be concerned about it. We want to work 
with you to make sure that these States are working with ICE so 
that we are not letting dangerous people out.
    I have gone over my time and I will give indulgences to my 
friend from California and I will recognize him now.
    Ms. Gibboney. Thank you.
    Mr. DeSaulnier. Thank you, Mr. Chairman.
    And I would really--in Mr. Judd's comments earlier and to 
the degree you can help us with this and your members, it would 
be wonderful if we could get, knowing the passion involved--and 
I don't want to put words in your mouth, but your original 
testimony to depoliticize as much as possible. Having spent a 
good deal of time when I was in the State Legislature in 
California researching public works projects that are so-called 
mega-projects, that is any project over $1 billion, they are 
just fraught with concerns from an implementation standpoint, 
your point about where it is.
    So it would be my wish that perhaps as an opportunity for 
us in a dispassionate, nonpartisan way look at just the 
engineering and from the security experts the best return on 
investment. And to that regard it has to be at least considered 
where the money will come from, whether the money will come 
from other parts of Homeland Security or whether it will come 
from NIH, which has equally compelling parent stories about 
people losing their lives because we haven't invested there. So 
that is an overall context.
    First, Mr. Chairman, I would like unanimous consent to 
enter into the record the Cato report that Mr. Camarota 
referenced, not the most liberal organization in the world. The 
title of the report is ``The Border Wall Cannot Pay for 
Itself.'' So I would like to enter that into the record.
    Mr. DeSantis. Without objection.
    Mr. DeSaulnier. And, Ms. Gibboney, the comments about your 
concerns from California, having a good relationship and then 
being from California with the Governor's office and with the 
Attorney General and other public safety people, we have 
differences of opinion respectfully, but to the degree that it 
is appropriate, I would like to also work with the chairman to 
make sure that we communicate appropriately with you about the 
release of your son's perpetrator of that crime. So I'm happy 
to work with that with the difference that we have, some 
differences of opinion, but as appropriate, I would be happy 
to.
    Mr. Stodder, you have a lot of experience in this field, as 
I said earlier, in big public works projects, usually get a 
needs assessment, extensive peer-reviewed need assessment so 
you get risk assessments. You let the engineers do their job, 
tell them what the objective is. You let the experts like Mr. 
Judd and Homeland Security have their input. With your 
extensive experience, are we at that point yet to go ahead and 
make a judgment that this is--realizing there are dueling 
ideological think tanks that are offering their own 
perspective, including some that you would have an unexpected--
like the Cato Institute--view of it?
    Mr. Stodder. I think we're at a position right now to know 
for a fact that a Federal program like this will have massive 
cost overruns. We know that for a fact. We know that the wall, 
whatever the estimates, whether it's $15 billion, $22 billion, 
$70 billion, we actually have no idea what a wall would 
actually cost.
    The thing that I do know is that--I mean, I'm with Mr. Judd 
in the sense of I think the way to secure the border is to have 
the right blend of different things that we do, whether it be 
Border Patrol personnel, technology sensors and drones, 
fencing, also investigations as well, investigations of human 
smuggling networks and financial facilitators of those 
networks. You have to have a blend of all of them. And I think 
the fallacy I think of the wall is to think that, well, this is 
just one size that's going to fit all. We're just going to put 
a giant great wall across the southern border except for the 
ports of entry. So let's not forget the ports of entry and the 
stuff that comes in through the ports of entry.
    Mr. DeSaulnier. Mr. Stodder, though, my comment is just to 
the dispassionate analysis from law enforcement experts, 
Homeland Security experts, and engineers. Has there been any of 
the due diligence done that you would expect ----
    Mr. Stodder. No, not that I'm ----
    Mr. DeSaulnier.--for similar public works?
    Mr. Stodder. Not that I'm aware of. And I think it's 
something that absolutely need to be done. I mean, it needs--we 
need to focus--I think we need to get the pros from the Border 
Patrol and from ICE and others together to sort of thing 
through what's the right blend in any particular sector area.
    And, I mean, I'm not a person that would say--I mean, I am 
as strongly enforcement-oriented as the next person, having 
served in both Bush and Obama. I just don't--I think--and it 
could be that additional fencing is required in certain areas 
in strategic locations. It did a world of good in San Diego 
certainly. But I just think the idea of putting a wall across 
the entire border I think without further deeper analysis is 
misguided.
    Mr. DeSaulnier. Okay. I have got two quick quotes from you 
that I want you to respond to, both about the sentiment 
expressed here in these quotes in regards to illegal 
immigration and drug enforcement. Homeland Security John Kelly 
recently stated that a threat against aviation, quote, ``keeps 
me literally awake at night,'' yet President Trump has proposed 
cutting the Transportation Security Administration budget, 
including a program that supports local police at airports.
    The other quote that I would like you to respond to is in 
February Vice Admiral Charles Ray of the Coast Guard's deputy 
commander of operations stated, quote, ``As a result of lack of 
resources last year, we were prevented from getting over 580 
known smuggling events, and those shipments made their way 
north.'' So could you respond to those two quotes?
    Mr. Stodder. Sure. Let me take them in reverse order, first 
with Charlie Ray, who I know well, good guy. I think - I mean, 
the idea of cutting the Coast Guard in order to build a wall is 
kind of insane because when you think about it from the 
perspective that we always thought--in Homeland Security we 
think about the three borders in the United States, so northern 
border, southern border, and the Caribbean border. And the more 
we reduce the resource availability of the Coast Guard, we are 
opening ourselves up to mass migrations from Haiti, from Cuba, 
and also for a shift in drug trafficking from the current place 
where it is, which is the U.S.-Mexican border back to the days 
of the 1980s and the '90s of movements through the Caribbean. 
So we have to make sure that the Coast Guard is adequately 
resourced to handle our third border.
    With regard to TSA, I mean, the cuts to TSA--I mean, I'm 
the first one to admit that, you know, certainly TSA requires 
some, you know, evaluations to sort of determine, you know, 
where it spends its money, but yes, the reduction of 
expenditure on the VIPR teams to help State and local law 
enforcement not only in airports but also surface 
transportation is perhaps unwise.
    Mr. DeSaulnier. And just a concluding comment, Mr. 
Chairman, and Mr. Cummings can speak to this with more 
expertise than me, but having spent some experience on this, it 
is always dangerous I think for us in elected office, 
irrespective of party, to jump to conclusions about criminality 
and how to stop it. That needs to be evidence-based. We have 
some bipartisan agreements on that in other fields. I would 
suggest that this is one of those opportunities, to be driven 
by evidence-based research in addition to the engineering 
aspects of this project, that it is thoroughly peer-reviewed.
    Thank you, Mr. Chairman.
    Mr. DeSantis. Thank you. I ask unanimous consent to wave on 
Mr. Grothman from Wisconsin. He is not a member of the 
subcommittee and he wanted to participate there.
    Without objection, so ordered.
    The chair will now recognize Mr. Comer for five minutes.
    Mr. Comer. Thank you, Mr. Chairman. And I have to say that 
during the two-week recess I spent the whole time traveling the 
district, I have a very wide district, very rural, six hours 
from east to west in my district in southern Kentucky. I had 10 
town halls and I don't know how many meetings and how many 
conversations with people, and the wall always came up.
    And there is overwhelming support in my district to build 
the wall, and that is something that people expect to get done 
in the very near future. So I had a couple questions first for 
Mr. Judd.
    Would the border wall have mitigated the terrible opioid 
epidemic we are seeing sweep across America, especially in my 
rural district in Kentucky?
    Mr. Judd. It absolutely will because, again, we will then 
dictate where illegal border crossings take place if we build 
the wall.
    Mr. Comer. How many criminal gang members have crossed into 
the U.S. in the past five years? And do you think the border 
wall could have reduced that number?
    Mr. Judd. I don't think it could; I know it could. When we 
catch these individuals that are coming here and asking for 
asylum, one of the biggest problems that we face is when we 
have them in the detention facilities, they're actually 
recruiting--while they're in our custody they're recruiting 
other individuals to join their gangs, and that's an extreme 
concern.
    Mr. Comer. Mr. Judd, I saw in the newspaper, the Senate 
Democrats assume a per-mile cost of $36.6 million per mile. Do 
you agree with that cost estimate?
    Mr. Judd. I don't. I'm not an expert on what the cost will 
be. I can just tell you how effective it will be. But what I 
can tell you is that 9/11 cost the government trillions of 
dollars. We have to--$1 billion, that's a drop in the bucket 
compared to what happened on 9/11.
    Mr. Comer. Obviously that is a concern of every taxpayer 
and every person that has any type of conservatism is the cost. 
When you look at the total cost, will all areas of the southern 
border require new fencing, as some of the opponents have 
claimed?
    Mr. Judd. It will. It will. We are--to build a proper 
wall--I'm an advocate of fencing, and again, I'm--it was a 
bipartisan effort to pass that. But the problem with fencing is 
it's defeatable. I can bring up a welding torch and I can cut 
holes in the fence. In fact, that's what happens. I have a 
brother who's also a Border Patrol agent who spent two years 
and all he did every day was patched holes in the fence. And so 
a wall is--cannot be defeated the way a fence can be defeated.
    Mr. Comer. What other factors--I guess this is for anyone 
on the panel. What other factors could have an impact on the 
total cost of the border wall? Are there things that can be 
done to build the wall cheaper where we still have the maximum-
security impact? Or what other factors would impact the cost or 
could impact the cost? Anybody?
    Mr. Camarota. Well, I mean, obviously one of the key 
questions is what are the most vital areas, right? There's 
parts of the border that are not likely to become major 
smuggling routes, at least for individuals, so we don't need a 
wall or even a lot of fencing there, maybe just a vehicle 
barrier. So I certainly don't think that we need a giant wall 
across the whole border. That's not my position. My position is 
that there are places where a wall and fencing barriers are 
vitally important and we don't have them. And we've authorized 
it in the past. It just--that seems crazy to me. And so I think 
that's where we should start at the very least.
    Mr. Judd. To address your question, one of the things that 
I have been impressed with--and again, this is not trying to 
take a political stance. I'm independent myself. But one thing 
that I have been impressed with is I've had the opportunity to 
meet with President Trump face-to-face on four occasions. I've 
had a telephonic conversation with him specifically about this 
issue. And one of the things is is, yes, he's come in with 
preconceived notions, but one thing that I have been very 
impressed with was, as a businessman, he has been willing to 
listen to the experts and what they've had to say.
    Now, what his ultimate decision is going to be I don't 
know, but I have had the opportunity to let him know that it's 
not 2,000 miles' worth of wall. It's strategic locations. And 
he's been open to that idea. So I'm hoping that's in fact where 
he goes because that will drive the cost way down.
    Mr. Comer. That's great.
    Mr. Stodder. One thing just to add to that a little bit is 
the--I mean, the unpredictable factors in terms of how you 
construct a wall like this or even fencing in areas is 
environmental issues, private lands, all kinds of litigation 
that could come out of this. I mean, I think we shouldn't--I 
mean, in any big project like that we cannot be Pollyannaish 
about how much this is going to cost and how long it's going to 
take because of the other factors that could go into it.
    Mr. Comer. And I have huge concerns about the private 
property aspects of it, so I would agree with that.
    But my time is up. Thank you, Mr. Chairman.
    Mr. DeSantis. I thank the gentleman.
    The chair now recognizes Mrs. Demings for five minutes.
    Mrs. Demings. Thank you so much, Mr. Chairman, and thank 
you for having this very important hearing.
    First of all, I want to just say to Ms. Gibboney how sorry 
I am for your loss. I am the mother of three sons, and I can't 
imagine what it would be like to not have those hugs and talks 
and interaction with them, so I'm so sorry ----
    Ms. Gibboney. Thank you.
    Mrs. Demings.--for your loss.
    I spent 27 years in law enforcement at the Orlando Police 
Department, and I can tell you, as a 27-year veteran, I have 
worked my share of homicides, aggravated assaults, rapes, child 
molestations, kidnappings, more than I care to admit. And I 
wish that I could've simply put up a wall to stop it because I 
would have done that.
    A question that came up earlier, what I can also tell you 
without hesitation is that the overwhelming majority of the 
people we arrested in those cases were not undocumented 
immigrants. And so the ranking member is absolutely correct 
that we do--as we keep America safe, it is my number one 
priority. We have to be careful that we are not generalizing a 
certain group of people from a certain place if we are 
committed to doing this correctly.
    Mr. Judd, I also want to thank you for your service. This 
is not a political issue. It is certainly not for me. I am 
going to believe that it is not for you. You talked about how 
important effective border barriers areas are, and just to kind 
of clear up this for me in my mind, Candidate Trump, when he 
talked about the walls, that it is going to be hard and 
concrete, made out of rebar and steel, and that is not the wall 
you support. Is that correct?
    Mr. Judd. Actually, I absolutely support a wall that can 
be--that is not defeatable. Again, I ----
    Mrs. Demings. This wall, made out of steel, rebar ----
    Mr. Judd. It cannot ----
    Mrs. Demings.--and ----
    Mr. Judd. It has to be a wall that cannot be defeated by 
welding torches. We face that problem on a daily basis today, 
so yes, it has to be an impenetrable wall as far as ----
    Mrs. Demings. So you would support a wall that was 2,000 
miles ----
    Mr. Judd. No.
    Mrs. Demings.--a concrete wall ----
    Mr. Judd. Absolutely not.
    Mrs. Demings.--made out of steel and rebar?
    Mr. Judd. No. I support a wall in strategic locations, 
which will then allow us to dictate where illegal border 
crossings take place.
    Mrs. Demings. Okay. When you say us, who exactly are you 
referring to?
    Mr. Judd. The United States Border Patrol.
    Mrs. Demings. Okay. All right. Mr. Stodder, I understand of 
course that you have worked on border issues in the Department 
of Homeland Security for 15 years under two administrations. 
Thank you so much for your service as well. And you have stated 
that we have greatly improved our border security against the 
most pressing threats to public safety, including terrorism, 
transnational organized crime, and we have established far 
greater control over illegal immigration on our southwest 
border than in any other time over the last four decades. Can 
you explain in more detail--I don't think we can talk about it 
enough how we have greatly improved our border security, or in 
other words, what has changed?
    Mr. Stodder. Sure.
    Mrs. Demings. What did we not have four decades ago that we 
now do?
    Mr. Stodder. Yes, I mean I guess what I can speak to is 
since when I served in the Bush administration in the years 
after 9/11 and then also serving in the Obama administration, 
there's been a bipartisan consensus, both administrations and 
in Congress, to strengthen border enforcement. We have tripled 
the size of the Border Patrol. We have deployed sensors, aerial 
drones across the border. We have put fences, secure fences in 
important strategic locations in the border. Are more fences 
needed in different places? I don't doubt it. But I think 
that's a question for the local Border Patrol sector chiefs to 
determine in their particular areas of responsibility what the 
right mixture of personnel, technology, and infrastructure 
really is.
    The other thing is that I think ICE, U.S. Immigrations and 
Customs Enforcement, has become far more effective in going 
after human smuggling organizations and going after their 
financial facilitators. So our investigative capabilities are 
also fairly strong.
    Now, here's the other thing that--I think to focus on here. 
Number one, with regard to Mexican immigration, you have to 
think in terms of the undocumented population in the United 
States, which is declining. It's around 11 million people right 
now down from about 12 million people 10 years ago. Less than 
half of the population now--it was just announced the other 
day--is Mexican. So that population is now mostly visa 
overstays. It's the--less than half is the Mexican population, 
and it's declining.
    The numbers of people who are coming across the border 
now--the Border Patrol is regularly apprehending about 400,000 
people at the border every year down from 1.6 million when I 
started back in the first--in the Bush administration after 9/
11. About half of those people are from Central America. So 
Central Americans who are coming up, and those folks either--
whether they're apprehended by the Border Patrol or by the 
Office of Field Operations at the port of entry, most of those 
folks are actually claiming asylum because they're coming 
from--they're fleeing violence or they're fleeing other 
difficulties in Central America or they've been told to do so 
by the smugglers. Some are legitimate, some are not, but all of 
them are entitled to a day in court in their immigration courts 
if they pass a credible fear screening and about 90-something 
percent of them pass credible fear.
    So what I would say is that we have become far more 
effective at policing the flow of people coming from Mexico. 
Mexico has changed economically so more people are staying 
home, fewer people are coming, but we still have serious 
problems. And the serious challenge that we're facing now in 
terms of migration is Central America. And that's straining our 
resources because people are claiming asylum, but there are 
500,000-person backlogs in our immigration courts, and that's 
what causes CBP and ICE to have to release those folks into the 
United States pending their claims.
    So if we were to spend it--you know, the first billion 
dollars I would spend in border enforcement probably would be 
going towards the immigration courts to staff those courts so 
we can actually expeditiously and efficiently process asylum 
claims so we don't have to have people in the United States for 
the length of five, six, seven years that it takes often to 
process an asylum claim. And that would send a message to the 
smugglers I think to say this is not a free pass to come to the 
United States.
    Mrs. Demings. Thank you so much. Mr. Chairman, thank you so 
much for the additional time. I yield back.
    Mr. DeSantis. You mentioned asylum. I mean, do you think 
that Congress needs to relook at how some of those statutes 
operate so that we can kind of not incentivize so many people 
to come in and make claims that really aren't meritorious?
    Mr. Stodder. It's a difficult question. I mean I think--I 
mean, the way the system works right now is that people--I 
mean, kids who come unaccompanied don't have to go through the 
credible fear screening; they just come in so--if they're 
coming from Central America, not from Mexico.
    But I mean the issue of whether credible fear should be 
looked at again I think is a difficult, tricky question because 
I think the reality is if--I mean, the stakes of being wrong, 
of a U.S. CIS Citizenship and Immigration Services officer 
being wrong in determining somebody does not have credible fear 
can result in certain circumstances of somebody going back to 
El Salvador or Honduras and being killed. So the stakes are 
high in terms of how we think about the credible fear test.
    Now, having said that, I think the statistics are of people 
coming from El Salvador and Honduras and to a lesser extent 
Guatemala, about 95 percent of them make it through credible 
fear screening ----
    Mr. DeSantis. Okay
    Mr. Stodder.--and then the immigration court is 50 percent 
----
    Mr. DeSantis. Yes, let me recognize ----
    Mr. Stodder. Yes.
    Mr. DeSantis.--Mr. Duncan for five minutes.
    Mr. Stodder. Sure.
    Mr. Duncan. Well, thank you, Mr. Chairman, and thank you 
most of all for the great job you do chairing this 
subcommittee. Let me just say, Ms. Gibboney, I have noticed 
that some Members of the Congress and many of these Saturday 
night comedians try to make jokes about the wall. It is not 
much of a joke to you, is it?
    Ms. Gibboney. No, it is not. It's--I don't see what's funny 
about it because they have not been affected personally because 
if they would, they would think differently also.
    Mr. Duncan. Well, I wish that everybody could have heard 
your testimony. I have always heard that the worst thing that 
can never happen to you is to outlive one of your children, and 
certainly you have our condolences.
    Let me say this. You know, some people imply or even say 
that if we try to enforce our immigration laws, that it is 
cruel or something is wrong with it, but, you know, I noticed 
in some of the staff material President Netanyahu of Israel, he 
said, ``President Trump is right. I built a wall along Israel's 
southern border. It stopped all illegal immigration, great 
success, great idea.'' Somehow, he can do it and not be 
criticized, but if we try to do it, there is something wrong 
with it.
    And then also I noticed in the material that I have been 
given from the staff, I mean even Mr. Stodder said that a 
border works in certain strategic locations, and I think that 
makes a lot of sense to me. I know the material we have been 
given says that just before they built the first wall in San 
Diego there were approximately 700,000 apprehensions, and this 
last year it was down to 31,000. So a wall has been very, very 
effective there.
    You know, the situation is this. You know, there are two 
statistics that tell the whole story. With only 4 percent of 
the world's population, we buy almost 22 percent of the world's 
goods. We have a standard of living far beyond what anybody 
else has, so you certainly can understand why so many hundreds 
of millions, maybe even a couple of billion want to come here.
    And the second statistic is that is that 58 percent of the 
people in the world have to get by on $4 or less a day. I mean, 
most people in this country don't realize how blessed we are, 
how fortunate we are. And you can understand why so many people 
want to come here. And we sympathize with all these people.
    Americans are the kindest, most generous, most sympathetic 
people in the world, but we simply can't open our borders and 
just take in everybody who wants to come because our hospitals, 
our jails, our sewers, our schools, our roads, our whole 
infrastructure, and not to even mention our economy, we 
couldn't handle the rapid influx of people that would come 
here. And there is no other country that faces the problem that 
we face to the extent that we face it. And so it is not cruel. 
It is just common sense.
    And, Dr. Camarota, the staff says that there is a recent 
National Academy for Sciences' study that estimated the net 
fiscal drain of each illegal crosser was $74,722. Are you 
familiar with that study?
    Mr. Camarota. Yes. Let me be clear. What the National 
Academy did was calculate the drain or fiscal benefit depending 
if someone's very skilled ----
    Mr. Duncan. Right.
    Mr. Camarota.--by education for each immigrant. So what I 
did was just apply that to the skill level of illegal 
immigrants to come up with an estimate how big it would be. So 
I took their estimates by education and looked at the education 
of the illegals and it comes to about $75,000 per illegal.
    Mr. Duncan. Then also we have been provided with figures 
that the IRS is paying out billions in improper payments to 
illegal immigrants every year through the use of refundable tax 
credits. Have you looked at that?
    Mr. Camarota. Yes, particularly the refundable portion of 
the additional child tax credit, the IRS a while ago made the 
determination that they could pay that out and they didn't have 
to worry so much about illegal status. So, yes, they are 
clearly paying hundreds of millions if not billions out to 
illegal immigrants. There's just--there's no question. It's 
also the case that they pay some out in the earned income tax 
credit ----
    Mr. Duncan. Right.
    Mr. Camarota.--but less.
    Mr. Duncan. Well, final question, let me ask you this. For 
years we have seen this figure and even in the material that we 
have been given for this hearing, it says 11 million illegal 
immigrants. Almost everybody I talked to estimates that it is 
way more than that, way more. And we are really probably 
talking $20 or $30 million. But you have studied this in detail 
and I haven't. Tell me what you feel is the most accurate 
figure in that regard?
    Mr. Camarota. It's important to recognize that it is 
illegal and difficult to measure and there is a margin of 
error. But if you're asking me, I think it's $10 to $12 
million. Could it be a little bit higher? Yes, it could be, but 
very briefly, the way we arrive at a number like that is we 
know about how many legal immigrants there should be in the 
United States, and then we look at the data the Census Bureau 
collects that identifies immigrants and then we subtract that 
out and we get a residual. And that number is about 10 million. 
And so then you think, well, maybe we're missing 10 percent 
based on some of the research, but it could be 20 percent. But 
you can see how it doesn't get up to $20 million.
    Is the Census Bureau data itself any good? I'm going to 
argue yes just because when we look at what the data shows us 
about school enrollment or we look at what the data shows us 
about birth, it pretty well lines up with administrative data. 
So I think that those estimates are right.
    Mr. Duncan. Let me stop you and ask ----
    Mr. Camarota. Yes.
    Mr. Duncan.--one last thing.
    Mr. Camarota. Sure.
    Mr. Duncan. How many millions have we allowed to immigrate 
here legally over let's say the last 50 years?
    Mr. Camarota. Well, the total illegal--the total foreign-
born is about 45, 46 million today in 2017 and about 10 or 12 
of that is illegal. So there are about 33 million, 32 million 
legally people present in the United States who are foreign-
born. Now, some have become citizens, but that total foreign-
born ----
    Mr. Duncan. Well ----
    Mr. Camarota.--legal is about $32 million.
    Mr. Duncan. My point is that no other country in the world 
has even come close ----
    Mr. Camarota. True.
    Mr. Duncan.--to allowing this many people to immigrate here 
legally as we have. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. DeSantis. I thank the gentleman. Time is expired.
    The chair will now recognize our guest from Wisconsin for 
five minutes.
    Mr. Grothman. Okay. I was going to do a follow-up but I 
will just ask you briefly. You are confident--how long has that 
11 million figure been out there? How long if I would ask you 
or somebody in your position how many people are here illegally 
would we hear the 11 million figure?
    Mr. Camarota. Well, we think that it's been around that 
number for like eight years now because every year we take the 
American Community Survey or the current population survey and 
try to estimate it.
    Mr. Grothman. What was it in the year 2000?
    Mr. Camarota. I think the general estimate is somewhere 
around eight million.
    Mr. Grothman. I am not sure that is right but okay.
    I am going to ask you guys some questions as far as the 
overall cost. Is there any estimate out there the amount of 
money we are paying every year for health care for people who 
are here illegally?
    Mr. Camarota. Do you want to count like U.S.-born children 
or just the illegal immigrants? Because a lot of children of 
illegal immigrants are signed up for Medicaid, so that would be 
a big cost anyway, so you'd have to ----
    Mr. Grothman. Give me either estimate.
    Mr. Camarota. It's several billion dollars a year for 
treatment for the uninsured because the illegal population 
makes up a large share of the uninsured.
    Mr. Grothman. Okay. Several billion, that would be, what, 
five billion?
    Mr. Camarota. Yes, that would be a perfectly ----
    Mr. Grothman. Okay. I know it is difficult to get records--
are there any estimates that agree to which income-based 
transfer payments are going to people illegally? I hear 
anecdotal evidence from income maintenance workers in my 
district that they are getting people that are illegal coming 
here. Do we have an estimate on the total amount of what we 
call welfare benefits claims of people here illegally?
    Mr. Camarota. We do have some estimates. Remember that an 
illegal immigrant can collect benefits on behalf of a U.S.-born 
child. If we include that, then those numbers certainly run, 
you know, to over $10 billion if you count things like the 
U.S.-born child on Medicaid. A family, for example, can get 
food stamps even though the parents are illegal because the 
food stamps come in the name of the U.S.-born children. So 
there's a lot of that going on.
    Mr. Grothman. Don't you believe that there are a lot of 
people, even adults, who are signing up for benefits who may 
not be citizens?
    Mr. Camarota. May not be citizens?
    Mr. Grothman. I hear that.
    Mr. Camarota. Sure. There are a lot of legal immigrants who 
also access the welfare system. I mean, I could give you my 
estimates for those things. I don't have them right in front of 
me, but yes, legal immigrants make extensive ----
    Mr. Grothman. How about illegal immigrants?
    Mr. Camarota. Illegal immigrants, yes. We know from the 
survey of income and program participation where they pretty 
well identify themselves as illegal based on some questions 
that more than half of all households headed by illegal 
immigrants have someone in that household signed up for some 
kinds of benefits, typically the non-cash programs.
    Mr. Grothman. Could you give me the total amount if you had 
to throw out a number there?
    Mr. Camarota. Total amount that illegal immigrants are 
receiving in income transfers, cash, and non-cash type stuff? 
Is that what ----
    Mr. Grothman. Right, right.
    Mr. Camarota. Oh, you know, that would be well over $10 
billion at least, more than that, most of it from the Federal 
Government.
    Mr. Grothman. And of course most of that is going to U.S. 
citizens ultimately, right?
    Mr. Camarota. Well, it depends on how you view it, right, 
because if you have a family getting food stamps, the parent 
certainly can feed themselves on those food stamps.
    Mr. Grothman. Okay.
    Mr. Camarota. If the family lives in public housing because 
they have one U.S.-born child, which is certainly allowed, then 
the parents are benefiting. So depends on how you want to 
calculate or view that.
    Mr. Grothman. But most systems don't cut off U.S.-citizen 
children from welfare benefits?
    Mr. Camarota. That's right, they don't, and that's why 
illegal immigrants can use those programs through their U.S.-
born children.
    Mr. Grothman. It's hard to get the numbers. Do you know how 
many people in our criminal justice system, how many people in 
local jails, prisons are illegal immigrants? Do we have hard 
numbers on that?
    Mr. Camarota. Incomplete numbers.
    Mr. Grothman. Substantial? I mean, when I am talking to 
people who run these facilities, they think it is a significant 
situation even in Wisconsin, but do you have any estimates?
    Mr. Camarota. You may remember the Federal Government is 
paying out lots of money already through the SCAAP program so 
that might be a place to begin to look at what share of inmates 
----
    Mr. Grothman. Okay.
    Mr. Camarota.--in jails and prisons so it's big.
    Mr. Grothman. I will give you a question. Do you know what 
the age of consent is in other countries around the world?
    Mr. Camarota. I believe--I know it's less than U.S. I don't 
know ----
    Mr. Grothman. Does anybody know about the age of consent is 
in Mexico, for example?
    Mr. Stodder, you have been involved in this area quite a 
while. Do you know?
    Mr. Stodder. I don't know the age of consent in Mexico.
    Mr. Grothman. That is shocking. Well, obviously, when we 
have people coming from another culture it is important, you 
know, they adapt to our culture. How long were you involved in 
this game, Mr. Stodder, that you don't know that?
    Mr. Stodder. The age of consent in Mexico?
    Mr. Grothman. Yes.
    Mr. Stodder. It's never been presented to me to know what 
the age of consent is in Mexico. I know that the age of consent 
in the United States is 18.
    Mr. Grothman. Well, it varies from State to State, but yes 
----
    Mr. Stodder. Yes, California.
    Mr. Grothman. They are 18 in some areas, 16 in others. 
Isn't it age 12 in many parts of Mexico? Do you view that as a 
potential problem when people come into this country, men come 
into this country and are used to living in a culture in which 
the age of consent is 12? Should people talk about that? Should 
people be educated about that?
    Mr. Stodder. What's the relevance of it? What are you 
driving at?
    Mr. Grothman. Well, I didn't--I am just saying ----
    Mr. Judd. From a law-enforcement standpoint absolutely 
because what we're doing is we're taking people into our 
country--the people are coming into our country that have a 
different set of rules and they're trying to take those sets of 
rules and apply them here in the United States when that's 
wrong.
    Again, we're talking about illegal acts. We're not talking 
about legal acts. We're not talking about legal immigration.
    Mr. Grothman. Right.
    Mr. Judd. We're talking about illegal immigration. And when 
illegal aliens come to United States--and that's why Ms. 
Gibboney and Ms. Espinoza are here today is because these 
individuals come from countries that do not enforce their laws, 
and they come to the United States, and because they were 
allowed to break our laws, they think that they can break any 
law and they continue to perpetrate more crimes upon U.S. 
citizens.
    Mr. Grothman. And Mr. Stoddard can't figure it out but you 
see a danger in people coming to this country who don't know 
what our laws are with regard to the age of consent and may 
think the laws in this country are the same as the laws in 
other countries. And for those of us who care about women or 
young girls, we might view that as a concern.
    Mr. Judd. Well, we do. In fact, all you have to look at is 
what happened in the school in Virginia where that young girl 
was raped by two people who crossed the border illegally who 
were ultimately released under the catch-and-release program, 
which is why I'm so anti-against the catch-and-release program. 
But we see that people who break our laws willfully then try to 
apply their set of rules that they brought from their country 
into our own country, and that creates a huge drain on law 
enforcement.
    Mr. Grothman. Not just a physical drain but a drain on the 
certainly the victims. Certainly ----
    Ms. Espinoza. Yes, and I do want to state also that not 
enforcing our laws encourages more breaking of the laws. And we 
certainly do not want to import more crime.
    Mr. Stodder. I don't think there's any evidence to indicate 
that kids under the age of 18, whatever their age, whatever the 
age of consent in their home country is, makes them more or 
less likely to commit crimes once they're here. I think the 
data is not there. I don't think that's what the data says.
    The one thing I will say about the age of consent that is 
important to think about, this Congress to think about is with 
regard to the Central American unaccompanied minors who are 
coming here, that when they--if they are under 18, if they're 
coming unaccompanied ----
    Mr. Grothman. Yes, I am running out of my time here. I am 
well past my time and the chairman has indulged me. But I just 
will say it concerns me that people are not being informed what 
our culture and our laws are who are coming here from other 
countries who think it is perfectly okay to have sex with a 13-
year-old if that is the culture they are coming out of. But 
thank you.
    Mr. DeSantis. The gentleman's time is expired. I will 
recognize myself for five minutes.
    Mr. Judd, it has been reported there has been a dramatic 
drop in illegal crossings over the past several months. Do you 
attribute that to the new posture being utilized by the Trump 
administration and Secretary Kelly?
    Mr. Judd. I know it is. And in fact when we interview these 
individuals that are currently crossing the border it's--is 
they know that the laws are going to be enforced. The simple 
promise that the laws are going to be enforced have driven 
down--but I must warn you, we're in a honeymoon period. We have 
to continue to enforce laws because if we don't, illegal 
immigration is going to go back up.
    Mr. Camarota. Can I say one quick thing about that?
    Mr. DeSantis. Sure.
    Mr. Camarota. What's interesting about this drop is, look, 
conditions haven't changed in Central America, just a lot 
more--fewer people have come. What that reminds us is migration 
is a choice. People's lives might be difficult but the fact is 
they make a choice to come. Things haven't changed. A lot of 
people say, look, people are compelled to come, they have no 
other option, but just the President's rhetoric mostly has 
affected people's behavior. Imagine if we follow it up with 
actual policy.
    Mr. Stodder. I think it's too soon to make a judgment on 
that because I think the other way of looking at it could ----
    Mr. DeSantis. Let me just ----
    Mr. Stodder. Yes.
    Mr. DeSantis. I just have a couple of things I have got to 
get to. I appreciate it.
    Mr. Judd, crime on the border, a real problem?
    Mr. Judd. It's a huge problem. In fact, if you look at 
Border Patrol agents, we are assaulted at a rate higher than 
any other law enforcement agency in the entire United States. 
And so, yes, border crime is a huge issue.
    Mr. DeSantis. And because I think Mr. Stodder had mentioned 
the cartel leaders, they are not exactly crossing the border, 
but does that mean that the cartels aren't a major problem on 
the border or do you think they are?
    Mr. Judd. No, I know the--cartels--when I joined the Border 
Patrol in 1997 almost 20 years ago, we had mom-and-pop 
smuggling organizations. That does not happen anymore. Every 
single facet of crime is controlled by very, very dangerous 
cartels, pathologically dangerous. They have no regard for 
human life whatsoever, as we currently see in Mexico. And 
unfortunately, that is starting to spill over into the United 
States because they operate here in the United States now 
whereas they didn't do that 20 years ago.
    Mr. DeSantis. Dr. Camarota, let me ask you this. Do you 
agree that there are clearly a lot--a number of immigrants--I 
mean, legal immigrants I think--who have a very positive 
economic impact on our society?
    Mr. Camarota. Especially in the fiscal area, the most 
educated immigrants are definitely of fiscal benefit, paying 
more in taxes than they use in services, but that does not 
describe the typical illegal immigrant.
    Mr. DeSantis. Right, so there's a difference between people 
who are coming through the legal channels and it may not always 
be enforced, but our laws that people, when they come here are 
legally, are not to be a public charge. They have to support 
themselves, correct?
    Mr. Camarota. That is what the law--though it's defined in 
a very narrow way so it's not that meaningful.
    Mr. DeSantis. So you are talking about people who are going 
through obviously unauthorized channels, and there is even a 
difference between the visa overstays versus the border 
crossers. The border crossers would have even less skills and 
less education ----
    Mr. Camarota. They'd be the least educated, right.
    Mr. DeSantis. Yes, okay.
    Ms. Espinoza, you have seen a variety of these issues or 
these tragedies over many, many years and you have been an 
activist, so can you just kind of, you know, crystallize for us 
the importance of this issue and how it affects some of the 
human lives that you have been able to work with over these 
many years?
    Ms. Espinoza. Yes, Mr. Chairman, thank you. And what 
troubles us most is that all of these crimes and killings are 
preventable. And we only deal with the killings of Americans. 
However, child molestation and rape is very high as well. You 
can see stats in North Carolina. And what is also very 
troubling is the fact that our own victims, American victims, 
are misguided through the system. And Agnes here was not 
allowed to give an impact--a victim's impact statement.
    So securing the border and enforcing laws--and I am for 
border wall and fencing just like Mr. Judd here. And I want to 
say also ----
    Mr. DeSantis. You agree with us I think most of the 
witnesses you don't need to do a 2,000-mile one ----
    Ms. Espinoza. Correct.
    Mr. DeSantis.--because there are some areas that--so you 
just basically do it in areas where it can stop the crossing?
    Ms. Espinoza. Absolutely.
    Mr. DeSantis. Yes.
    Ms. Espinoza. Yes, sir, and that's common sense. And I 
don't want this issue to be politicized. And I'm a former 
Democrat. My father was born in Mexico. I've been in the 
strawberry fields since I was eight years old so this is not a 
political issue.
    When we--my husband and I Tim Lyng started this Remembrance 
Project, we looked at the issue. It was about an officer in 
Houston, Texas, who was shot by an illegal alien and there was 
a lawsuit brought against the city by his widow, who was also a 
police officer, Joslyn Johnson. And that was about sanctuary 
cities, never heard of it before, we were not political, and 
here we are.
    And again, I just stress to you that just let's look at the 
issue here, not politicize American lives. And we have seen so 
much. And again, I appreciate your time, but I just can't tell 
you how much--if you would just please look at the issue and 
focus on keeping Americans safe.
    Mr. DeSantis. Thank you.
    Ms. Espinoza. Thank you.
    Mr. DeSantis. Thank you. I appreciate that.
    I am going to recognize my friend from California for five 
minutes.
    Mr. DeSaulnier. Thank you, Mr. Chairman. I want to thank 
you and everyone who joined the hearing, including all of the 
witnesses.
    I more taken by the fact that a lot of what we are dealing 
with here is symptoms of a larger problem, and that is for this 
country and particularly for Congress to come up with 
thoughtful immigration policy and reform. In a global economy 
where the world has clearly changed, as the chairman said in 
his introductory comments, things have changed. In this 
country, immigration and diversity is the basis of our success 
and our birth, and it's been part of our success ever since and 
differentiates us from every other country in the world.
    And having said that, we need to have immigration policy 
that is right, that protects against the kind of criminality 
that we have heard about, both personally and statistically 
today.
    So I just want to read one quote because Senator Moynihan 
many years ago in Congress across the other side of the aisle 
once famously said ``Everybody is allowed their own opinions 
but not their own facts.'' And for some weird reason we have 
now entered into a period whether it is alternative facts or 
not, we fight opinions, period. So that is why maybe this is an 
opportunity, Mr. Chairman, to do what we have recently been 
able to do on a bipartisan level when it comes to the 
adjudication process and criminality is to deal with evidence-
based research.
    And if all of you could help us with that, knowing of your 
very strong passions and opinions and different perspectives, I 
think we would get to the point that the chairman started this 
committee on, is our failure to come up with an immigration 
policy that is effective, that allows people to come to this 
country that the Statue of Liberty proudly welcomes that want 
to come here and have opportunity but under conditions that we 
set as a nation in terms of policy to both protect the citizens 
who are here now but enable those incoming immigrants to 
flourish as the Founders wanted them to do.
    So I just want to read one quote because we get into these 
dueling perspectives with cost from a New York Times Magazine 
article that was actually quoted by the majority staff and 
basically corroborating Mr. Camarota's comments and research. 
But it went on to say, and I quote, ``There are many ways to 
debate immigration, but when it comes to economics, there isn't 
much of a debate at all. Nearly all economists of all political 
persuasions agree that immigrants, those here legally or not, 
benefit the overall economy, and that is not controversial.''
    He goes on to quote from Heidi Shierholz from the National 
Policy Institute that says, quote, ``There is a consensus that, 
on average, the incomes of families in this country are 
increased by a small but clearly positive amount because of 
immigration,'' end quote. So I just end my comments in saying 
maybe this is an opportunity in this relatively poorly attended 
hearing that all of us could focus on the real issue, that we 
recognize that immigration is a great benefit to this country 
and it is a basis of this country's success.
    In California there is plenty of research that shows that 
the reason we are the sixth-largest economy is because we have 
the most diversity and are the most reflective of the global 
economy. Having said that, we have to get immigration policy 
right, so the things that have happened at least statistically 
are reduced.
    So with that, Mr. Chairman, I would again thank you and 
hope that this is an opening of a new chapter in a bipartisan 
effort to put our efforts to where it is most effective.
    Mr. DeSantis. I thank the gentleman.
    The chair now recognizes the gentleman from Georgia, Mr. 
Hice, for five minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    Mr. Judd, let me begin with you. How did the construction 
of the multilayer border fence in San Diego back in '96 impact 
illegal entry into the area?
    Mr. Judd. It moved illegal entry over to Tucson, Arizona, 
and it caused a huge impact. But what I can tell you, 
Representative Hice, is that everywhere that we have built a 
fence, we have been effective. We have been effective in 
controlling where illegal immigration takes place, which then 
allows me to be more effective in the number of illegal aliens 
I take into custody.
    Mr. Hice. Do you have any idea how many apprehensions there 
have been, the difference from before the wall was built in San 
Diego as to apprehensions now?
    Mr. Judd. Yes. Again, the high watermark was the very late 
'90s, early 2000s, and San Diego was a fairly busy place. After 
the fences were built, the double-layer fences, the effective 
barriers were built, illegal immigration dropped to next to 
nothing in San Diego, and it all moved out to the locations 
where there weren't physical barriers.
    Mr. Hice. Yes, let me give you some figures that I found, 
and you can verify this for me. What we have seen is there were 
in 1996 but prior to the barrier there were 480,000 
apprehensions in 1996. The most recent figure is 2016. There 
were under 32,000. That is over a 93 percent decrease.
    Mr. Judd. And that is largely due to the enforcement 
posture which we took in San Diego. Unfortunately, we didn't 
take that same enforcement posture in the other sectors such as 
Tucson, Arizona, and so we drove everything out there. But 
since we have been taking those same types of postures, we've 
driven down illegal immigration in Tucson as well. So, yes ----
    Mr. Hice. What are some of the other postures? I now 
realize we can't positively quantify the effectiveness totally 
with the layered wall that has been built, but there is no 
doubt the correlation. The numbers have dropped drastically, 
over 93 percent since it was put in place. But what other 
measures have been taken in San Diego?
    Mr. Judd. Well, the most important measures that we took 
was not only did we build these barriers, but we promised that 
anybody that would cross in that particular corridor, we were 
going to detain them, keep them in custody, and we were going 
to hold them until they had their deportation hearings, whereas 
in other locations, if we took them into custody and there 
weren't--there wasn't bed space with ICE, we would then end up 
just walking them out our door and letting them go and hope 
that they would show up for their immigration hearing sometime 
later on a couple years down the road.
    But in San Diego what we did was we used what was called 
the consequence delivery system, which then anybody that 
crossed through that corridor we would hold in custody and we 
would put them through deportation proceedings.
    Mr. Hice. Okay. Mr. Camarota, let me ask you. Do you 
believe that a border wall would help us address the issue of 
human trafficking?
    Mr. Camarota. Yes. I would second what Mr. Judd was saying. 
Fencing barriers, while in key places would--could make a very 
enormous difference as a force multiplier and would help us 
interdict trafficking.
    Mr. Hice. Have these discussions come up in various 
communities where you have had talks on this issue?
    Mr. Camarota. I'm not sure I understand. Do you mean do I 
think that ----
    Mr. Hice. Yes, have you brought this up in discussions you 
have had in the southwest border area specifically with the 
issue of human trafficking?
    Mr. Camarota. The agents that I have spoken to when I have 
traveled down there all, like Mr. Judd, seem to feel strongly 
about the wall being helpful.
    Mr. Hice. So it would help obviously in multiple ways, be 
it just illegal individuals or drug trafficking, gangs, human 
trafficking? You believe it would be helpful across the board?
    Mr. Camarota. I think it can be very helpful, sure.
    Mr. Hice. Okay. Mr. Judd, let me come back to you as far 
as--because I'm intrigued with what's happened in San Diego and 
your experiences overall. What other kind of technologies do 
you think could be implemented in addition to a physical 
barrier?
    Mr. Judd. First and foremost--I worked in the busiest 
sector, which was the Tucson sector. Individually, I ran a team 
of agents, which was a mobile interdiction team. We were 
arresting 100 illegal aliens a night. That was a team of five 
to six individuals, 100 people per night. Those 100 people that 
we were arresting, 300 people were getting away from us just 
simply because that's what the number of people that were 
coming across.
    When we started deploying the technologies such as drones, 
such as more sensors, better scope trucks that had radar on 
them, when we started deploying that and we became more 
effective, what we did was we shifted the illegal immigration 
to other places that didn't have that. So what I'm going to 
tell you is that it has to be comprehensive because we can't 
just continue to shift the burden to different sectors.
    Mr. Hice. Sure.
    Mr. Judd. We have to ----
    Mr. Hice. I get that, but you're talking everything from 
drones to virtual walls to more border agents.
    Mr. Judd. They all work.
    Mr. Hice. All of the above are necessary.
    Mr. Judd. They all work.
    Mr. Hice. Okay. Thank you very much, and I appreciate it, 
Mr. Chairman. I yield.
    Mr. DeSantis. All right. The gentleman yields back.
    I want to thank the witnesses for your testimony. We very 
much appreciate it.
    You know, a couple things I think that we got from the 
hearing, I mean, we are not talking about a 2,000-mile wall. It 
is going to be basically finishing the job of the 2006 Secure 
Fence Act, and those are very important locations that can be a 
force multiplier. Doing that and reducing the flow can reduce 
burdens on taxpayers on the backend and can also reduce crime, 
which is obviously very important.
    We all saw these crime victims have stories to tell, and 
these stories need to be told. And the tragedy is that, you 
know, the Federal Government is partly responsible for these 
things and that really upsets me. And you have got to do 
better.
    This committee is going to monitor the cost of this thing. 
You know, we don't want to waste money. But I am convinced that 
this can be done creatively where you are not just 
appropriating money but actually using some of the money that 
is seized or some of these other programs that are clearly 
running amok and diverting money that was probably a better way 
to do it.
    And then I think, Mr. Judd, physical security, just one 
aspect, important aspect but just one. We have got to support 
the Border Patrol. We have got to have good policies so that 
people know the law is going to be enforced. And we have got to 
deal with this issue of people who are convicted criminals here 
illegally being released back into society rather than sent 
back. We just cannot allow additional crimes to be committed at 
that point, and we have seen it time and time again.
    So I appreciate everybody's time and testimony, and this is 
going to be an issue that the committee is going to continue to 
deal with. So thank you.
    And with that, this hearing stands adjourned.
    [Whereupon, at 3:55 p.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
               
               
                                 [all]
</pre></body></html>
